HHS/OIG-Audit--"Audit of Medicare Part B Services Billed by California's
Developmental Centers and State Hospitals for the period January 1, 1993 through
June 30, 1997, (A-09-98-00072)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Part B Services Billed by California's Developmental
Centers and State Hospitals for the Period January 1, 1993 Through June 30,
1997," (A-09-98-00072)
May 24, 2000
Complete
Text of Report is available in PDF format (1.73 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report discloses that California's Department of Developmental
Services (DDS) was overpaid for 73 of 100 statistically sampled services. The
point estimate of the overpayments was $13,046,880 for the 4 ½ year period
ended June 30, 1997. Fifty-nine of the sampled services were denied, and 14
were allowed but at lesser amounts. We recommend that the carrier develop with
the Health Care Financing Administration's guidance a monitoring plan to ensure
that DDS' future claims are brought into compliance with Medicare's rules.
We also recommended that the identified overpayment not be recovered at this
time pending further review by the OIG.